                      U.S. COMMODITY FUTURES TRADING COMMISSION
                                            Three Lafayette Centre
                                 1155 21st Street, NW, Washington, DC 20581
                                         Telephone: (202) 418-5000
                                          Facsimile: (202) 418-5521
                                                 www.cftc.gov



   Office of the                      MEMORANDUM
Inspector General




TO:             Chairman Timothy Massad,
                Commissioners: Scott O'Malia, Mark Wetjen, Sharon Bowen, and J. Christopher
                Giancarlo

IFROM:          A. Roy Lavik
                Inspector General
                                 a R--£.__
DATE:           July 17, 2014

SUBJECT:        Performance Audit Report# 14-P-05-DSIO

Attached is the Commodity Futures Trading Commission (CFTC) Office of the Inspector General
(OIG) audit report on:

          "CFTC 's Management Controls and Procedures for Evaluating Futures Commission
         Merchants'(FCM) and Retail Foreign Exchange Dealers'(RFED) Compliance with
         CFTC Financial Reporting Requirements Mandated by the Commodity Exchange Act and
         the Dodd Frank Act"

The CFTC-OIG contracted with an independent public accounting firm, CliftonLarsonAllen to
conduct this audit. The OIG monitored this audit and concurs with CliftonLarsonAllen's findings
in the attached audit report. The findings were discussed with management in the Division of
Swap Dealer and Intermediary Oversight; their comments are attached to the final report.

Should you have any questions regarding this report, please do not hesitate to contact me.

Attachments
      ·,




                                17
              CliftonlarsonAllen



 U.S. COMMODITY FUTURES TRADING COMMISSION



                           Report on
            Management's Procedures for Evaluating
Futures Commission Merchants and Retail Foreign Exchange Dealers
        Compliance with Financial Reporting Requirements
                                                   TABLE OF CONTENTS


INTRODUCTION .......................................................................................................................... 1
BACKGROUND ............................................................................................................................ 1
SUMMARY OF RESULTS ............................................................................................................ 1
SCOPE AND METHODOLOGY ................................................................................................... 2




ABBREVIATIONS

CFTC                           U.S. Commodity Futures Trading Commission
CLA                            CliftonLarsonAIIen LLP
CEA                            Commodity Exchange Act
Dodd-Frank Act                 Dodd-Frank Wall Street Reform and Consumer Protection Act
FCM                            Futures Commission Merchants
FY                             Fiscal Year
OIG                            Office of the Inspector General
RFED                           Retail Foreign Exchange Dealers
RSR                            Regulatory Statement Review
  ..     :..
INTRODUCTION

The U.S. Commodity Futures Trading Commission {CFTC) was created by the Congress in
1974 as an independent agency with a mandate to regulate commodity futures and option
markets in the United States. Its mission is to protect market participants and the public from
fraud, manipulation, abusive practices, and systemic risk related to derivatives-both futures
and swaps-and to foster transparent, open, competitive, and financially sound markets. In
carrying out its mission and to promote market integrity, CFTC polices the derivatives markets
for various abuses and works to ensure the protection of customer funds. The agency also
seeks to lower the risk of the futures and swaps markets to the economy and the public. CFTC's
fiscal years {FYs) 2012 and 2013 budgets were about $205 million and $308 million,
respectively.

CliftonlarsonAIIen LLP {CLA) was engaged by CFTG's Office of the Inspector General {OIG) to
conduct an audit of CFTC's management controls and procedures for evaluating Futures
Commission Merchants' {FCMs') and Retail Foreign Exchange Dealers' {RFEDs') compliance
with CFTC financial reporting requirements mandated by the Commodity Exchange Act {CEA)
and Dodd-Frank Wall Street Reform and Consumer Protection Act {Dodd-Frank Act). The
objective of this audit was to assist OIG in evaluating CFTC's management controls relating to
its regulatory oversight of FCMs' and RFEDs' compliance with financial reporting requirements
during FYs 2012 and 2013. Our audit was limited to CFTC's oversight of FCMs and RFEDs
holding customer funds.

BACKGROUND

CFTC's Division of Swap Dealer and Intermediary Oversight {DSIO) has responsibility for
overseeing the registration and compliance of intermediaries and futures industry self-regulatory
organizations, including U.S. derivatives exchanges and the National Futures Associations.
Under Dodd-Frank Act, DSIO is responsible for developing and monitoring compliance with
regulations addressing registration, business conduct standards, capital adequacy, and margin
requirements for swap dealers and major swap participants. OSlO's New York Regional Office
has primary responsibility for ensuring and conducting reviews of FCMs' and RFEDs'
compliance with CFTC financial reporting requirements.

As required under CEA, FCMs and RFEDs are required to periodically file a variety of audited
and unaudited financial reports and other information with CFTC each year. Such reports and
information include statements of financial condition, computation of minimum capital
requirements, income, changes in ownership equity, changes in subordinated liabilities, and .
cash flows.

SUMMARY OF RESULTS

Our audit found that CFTC had management controls to help achieve its regulatory oversight of
FCMs' and RFEDs' compliance with CFTC financial reporting requirements during FYs 2012
and 2013. Our analysis of a sample of FCMs and RFEDs reviewed by DSIO indicated that
CFTC's prescribed procedures for conducting its reviews were generally followed. We identified,
and communicated separately to management, certain matters about CFTC's control
deficiencies for which CFTC could take measures to strengthen its controls.




                                               1
                                                                                                 ·'
SCOPE AND METHODOLOGY

Our audit scope was limited to evaluating CFTC's management controls toward achieving its
regulatory oversight of FCMs' and RFEDs' compliance with financial reporting requirements
during FYs 2012 and 2013. Our audit was limited to CFTC's reviews of FCMs and RFEDs
holding customer funds.

We reviewed CEA and Dodd-Frank Act provisions; CFTC financial rules, regulations, and
procedures, and specifically CFTC management contrQis and reviews of FCMs' and RFEDs'
compliance with financial reporting requirements. In addition, we interviewed CFTC
headquarters and OSlO's New York regional office officials about the management controls,
policies, and procedures used in reviewing FCMs' and RFEDs' compliance with financial
reporting requirements. We also analyzed the reports and workpapers of a sample of FCMs and
RFEDs reviewed by OSlO in FYs 2012 and 2013, and determined their compliance with
financial reporting requirements. Regulatory Statement Re~iew (RSR) express is an internally
developed system used ~y CFTC to process and verify financial reports submitted by the FCMs
and RFEDs. This system utilizes comprehensive edit and logic checks to analyze the financial
reports for specific financial ratios and/or reportable events. CLA did not perform an Information
Technology system and security assessment or conduct an evaluation of the RSR express's
functionality and capability.

We conducted this performance audit in accordance with Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our conclusion based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our conclusion.           ·


This report is intended solely for the information and use of CFTC's management and OIG, and
is not intended to be, and should not be, used by anyone other than these specified parties.




Calverton, Maryland
April 25, 2014




                                                2
                                         •
                            CliftonlarsonAllen
                                                                     CliftonlarsonAIIen LLP
                                                                     www.cliftonlarsonallen.com




Inspector General
U.S. Commodity Futures Trading Commission

In planning and performing our performance audit of the U.S. Commodity Futures Trading Commission's
(CFTC's) management controls and procedures for evaluating Futures Commission Merchants' (FCMs')
and Retail Foreign Exchange Dealers' (RFEDs') compliance with CFTC financial reporting requirements
mandated by the Commodity Exchange Act (CEA) and Dodd-Frank Wall Street Reform and Consumer
Protection Act (Dodd-Frank Act) for fiscal years·2012 and 2013 in accordance with Government Auditing
Standards, issued by the Comptroller General of the United States, we considered the entity's internal
control as a basis for designing procedures that are appropriate for this engagement.

During our audit, we became aware of deficiencies in internal control other than significant deficiencies
and material weaknesses and other matters that are opportunities to strengthen management's internal
control and improve the efficiency of CFTC's operations related to its oversight of the FCMs' and RFEDs'
compliance with the mandated financial reporting requirements referred to above.

While the nature and magnitude of these other deficiencies in internal control were not considered
important enough to merit the attention of those charged with governance, they are considered of
sufficient importance to merit management's attention.

We did not audit CFTC's responses and, accordingly, we express no opinion on them.

This letter is intended solely for the information and use of the management of CFTC and its Office of
the Inspector General, and is not intended to be, and should not be, used by anyone other than these
specified parties.




Calverton, Maryland
April 25, 2014




                                                   1
                                                                                                 EXHIBIT I
                          U.S. COMMODITY FUTURES TRADING COMMISSION
                                 MANAGEMENT LETTER COMMENTS
                                       September 30, 2013

FISCAL YEAR 2013 FINDINGS

1. DIVISION OF SWAP DEALER AND INTERMEDIARY OVERSIGHT (DSIO) POLICIES AND PROCEDURES
   FOR EVALUATING FCMs AND RFEDs COMPLIANCE WITH FINANCIAL REPORTING REQUIREMENTS

   Conditions- During our review of the CFTC's assessment process used to monitor the FCMs' and
   RFEDs' compliance with financial reporting requirements mandated by the CEA, we noted that OSlO
   management did not have a formal policy in place to establish the staff hierarchy for OSlO reviews
   of FCMs and RFEDs until June 2013. The policy required that a CT level 14 or above perform the
   second review and approval of the FCMs' and RFEDs' compliance with the financial reporting
   requirements. We examined the reviews conducted by OSlO staff and noted the following

       •   In 2 of the 32 FCMs/RFEDs financial statements examined, the second/supervisory review
           was performed by an auditor at a CT grade level13 or lower subsequent to the date of the
           new policy.
       •   In 13 of the 32 FCMs/RFEDs financial statements examined, the second/supervisory review
           was performed by an auditor at a CT grade level 13 or below before the policy was
           established.

   In addition, we noted instances that the OSlO policies and procedures did not contain clear and
   concise instructions to ensure the objectives of the review procedures were met. For example,
   management's policy contained a procedure for its staff to investigate and document the cause of
   material changes to specific line items during the examination of the FCMs and RFEDs financial
   statements. However, the manual did not include a provision and/or parameter on what constitutes
   a material change.

   Recommendations- We recommend that CFTC:

   1. Develop a documented monitoring process of control activities related to the supervisory review
      of FCMs' and RFEDs' financial reporting compliance to ensure that the process is operating as
      management intended to accomplish its control objective. The results of the monitoring
      activities should be evaluated and any deficiency identified should be corrected by management
      in a timely manner.

   Management Response:
   CFTC management concurred with Recommendation 1. However, management indicated a
   monitoring process and controls have been in place since December 2013. Only the appropriate,
   assigned staff can perform an initial and supervisory review of the financial statements. This is
   controlled in two ways. First, the names of the staff and supervisors assigned to a particular firm are
   coded directly into RSRexpress by the System Administrator (upon the request from an Associate
   Director) thereby ensuring that only assigned individuals can sign off a supervisor review. Second, a
   monthly report is generated for each Associate Director detailing the status of the monthly financial
   review process and resolution of any issues noted. This report is summarized and presented to the
   Deputy Director in a monthly status report highlighting any issues and reviews outstanding more




                                                   2
                                                                                                      EXHIBIT I
              ·,               U.S. COMMODITY FUTURES TRADING COMMISSION
                                      MANAGEMENT lETTER COMMENTS
                                           September 30, 2013

       than 30 days. If a financial review is outstanding for an extended period of time, appropriate actions
       are taken by management.

       Auditors Comments:
       Management stated that a monitoring process and controls were placed in operations as of
       December 31, 2013, approximately two months subsequent to the audit periods. As a result, we
       could not determine the adequacy of control design or operating effectiveness of management's
       corrective actions.

       2.   Refine current policies and/or procedures manual to incorporate the review and/or research
            criteria for material variances in all places mentioned in the manual. In addition, management
            should review and determine whether any other vague criteria exist and update accordingly. All
            documented policies and procedures should be clear, concise, and descriptive.

       Management Response:
       CFTC management did not concur with Recommendation 2. Management indicated that the
       definition for materiality is set forth in CFTC interpretation 4-1 dated July 29, 1985, which clearly and
       concisely states the definition in terms of a percentage. This definition has been readily accepted
       and applied in practice by the Commission Staff, the Division of Enforcement and by the DSROs. This
       definition was reviewed as recently as June 2013 in discussions with the DSROs and was reaffirmed
       as appropriate at that time. Additionally, management performed a review of its procedures and
       identified no "vague criteria" in its procedures.

       Auditors Comments:
       Management stated that a definition for materiality was set forth in CFTC interpretation 4-1.
       However, the aforementioned interpretation addresses material error. The specific research
       criterion for material variance was not defined in OSlO's policies and procedures. Such vague criteria
       allows for inconsistent application of the procedure performed by staff.

2. REGUlATORY STATEMENT REVIEW (RSR) EXPRESS

       Condition- CFTC uses RSRexpress as an essential application to process and verify financial reports
       submitted by the FCMs and RFEDs. RSRexpress is an internally modified information technology
       system that utilizes comprehensive edit and logic checks to analyze the financial reports for specific
       financial ratios and/or reportable events. The Office of Data and Technology management stated
       that the RSRexpress system operates under the overall structure of the General Support System
       {GSS) and has inherited all the information technology controls associated with GSS. However,
       management was not able to provide documentation that supports the above assertion or
       documentation that a security assessment was performed on RSRexpress.

       Recommendation- We recommend that that CFTC management:

       Review the current classification of RSRexpress as a minor application 1 and reevaluate the Federal
       Information Processing System 199 categorization of RSRexpress. A further review of the data types

1
    See OMB Circular A-130 Appendix Ill for a discussion on major vs. minor system.



                                                          3
                                                                                         EXHIBIT I
                      U.S. COMMODITY FUTURES TRAQING COMMISSION
                             MANAGEMENT LETTER COMMENTS
                                   September 30, 2013

housed in RSRexpress by the Office of Data and Technology will assist management in evaluating
security risks associated with the system. Once the assessment is performed, management should
implement the necessary controls to mitigate security risks identified with this system.

Management Response:
Management concurred with our recommendation. However, management stated that RSRexpress
inherits controls from the CFTC General Support System (GSS or CFTC Network) for NIST 800-53
Revision 3. The GSS is rated as a moderate impact system, as are all the other major CFTC systems.
Changes to RSRexpress have been and will continue to be evaluated by the CFTC Security Impact
Analysis (SIA) component of the change management process, which considers controls for all of the
NIST 800-53 Revision 3 control families. Eight such SIA reviews of RSRexpress changes have been
conducted in FY 2013. However, management will reconsider, during its transition to compliance
with NIST 800-53 Revision 4, current Certification and Accreditation (C&A) boundaries and may
adjust them in order to identify and manage risk as efficiently as possible.

Auditor's Comments:
Management comments appear to be responsive to our recommendation. The CFTC Office of the
Inspector General should follow-up with management to ensure that the corrective action
implemented by management is effective




                                              4
                     U.S. COMMODITY FUTURES TRADING COMMISSION
                       Division of Swap Dealer and Intermediary Oversight
                                    140 Broadway, New York, NY 10005
                                        Telephone: (646) 746-9834
                                         Facsimile: (646) 746-9937
                                         E-Mail: kpiccoli@cftc.gov



                                                                              Kevin C. Piccoli
                                                                              Deputy Director
To:           Tony Baptiste - OIG
From:         Kevin Piccoli - DSIO Examinations
Cc:           Gary Barnett
Date:         May 28,2014
Subject:      Audit Report Management Comments


Tony- as requested, please find below our response to the Management Letter
Comments we received from your recent review of DSIO- Examinations group. Please
let me know if you have any comments or questions.

Recommendation # 1.1
Management Response:
A monitoring process and controls have been in place since December 2013. Only the
appropriate, assigned staff can perform an initial and supervisory review of the financial
statements. This is controlled in two ways. First, the names of the staff and supervisors
assigned to a particular firm are coded directly into RSRexpress by the System
Administrator (upon the request from an Associate Director) thereby ensuring that only
assigned individuals can sign off a supervisor review. Second, a monthly report is
generated for each Associate Director detailing the status of the monthly financial
review process and resolution of any issues noted. This report is summarized and
presented to the Deputy Director in a monthly status report highlighting any issues and
reviews outstanding more than 30 days. If a financial review is outstanding for an
extended period of time, appropriate actions are taken by management.

Concur: Yes _X_ No

Recommendation #1.2
Management Response:
The definition for materiality is set forth in CFTC interpretation 4-1 dated July 29, 1985
which clearly and concisely states the definition in terms of a percentage. This
definition has been readily accepted and applied in practice by the Commission Staff,
the Division of Enforcement and by the DSROs. This definition was reviewed as
recently as June 2013 in discussions with the DSROs and was reaffirmed as
appropriate at that time. Additionally, we have performed a review of our procedures
and identified no "vague criteria" in our procedures.

Concur: Yes         No_X_
Recommendation #2.1
Management Response:
RSRexpress inherits controls from the CFTC General Support System (GSS or CFTC
Network) for NIST 800-53 Revision 3. The GSS is rated as a moderate impact system,
as are all the other major CFTC systems. Changes to RSRexpress have been and will
continue to be evaluated by the CFTC Security Impact Analysis (SIA) component of the
change management process, which considers controls for all of the NIST 800-53
Revision 3 control families. Eight such SIA reviews of RSRexpress changes have been
conducted in FY 2013. However, the CFTC will reconsider, during its transition to
compliance with NIST 800-53 Revision 4, current Certification and Accreditation (C&A)
boundaries and may adjust them in order to identify and manage risk as efficiently as
possible.

Concur: Yes X      No
